HHS/OIG, Audit - "State Agency Use of Contracted Services in Hamilton
County - Ohio Department of Job and Family Services," (A-05-05-00058)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"State Agency Use of Contracted
Services in Hamilton County - Ohio Department of Job and Family Services," (A-05-05-00058)
August 22, 2006
Complete Text of Report is available in PDF format (669 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our audit were to review State agency
oversight procedures for child support enforcement program contracts and
determine the allowability of contracted services costs for the Title IV-D child
support enforcement program administered by the Hamilton County Department of
Job and Family Services for the period January 1, 2003, through December 31,
2004.  The State agency had extensive policies and procedures in place for
properly procuring contracted services for the child support enforcement
program.  We found that reviewed charges to the Title IV-D program were
generally acceptable.  We recommend that the State agency continue to emphasize
its policies and procedures to ensure that County agency allocations for
contracted services for the child support enforcement program are in accordance
with benefits received.
State agency
officials agreed with the findings and the recommendation.